TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     The Internal Revenue Service Needs to
                         Improve Procedures to Identify
                       Noncompliance With the Reporting
                      Requirements for Noncash Charitable
                                  Contributions



                                          March 5, 2007

                              Reference Number: 2007-30-049




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   March 5, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Internal Revenue Service Needs to Improve
                                 Procedures to Identify Noncompliance With the Reporting
                                 Requirements for Noncash Charitable Contributions
                                 (Audit # 200630012)

 This report presents the results of our review of Provision 883 (Increased Reporting for Noncash
 Charitable Contributions) of the American Jobs Creation Act of 2004.1 The overall objective of
 this review was to evaluate the implementation of Provision 883 and the processing of individual
 income tax returns reporting deductions for noncash contributions.

 Impact on the Taxpayer
 Gifts of donated property, clothing, and other noncash items have long been a popular deduction
 for taxpayers. In recent years, the legitimacy of the values placed on some of these noncash
 donations has been questioned by the Internal Revenue Service (IRS) and Congress. As a result,
 Congress passed legislation adding additional reporting requirements to substantiate the value of
 some of these donations. Currently, taxpayers who may not be entitled to deductions for
 noncash contributions are reducing their tax liabilities and may receive refunds regardless of
 whether they provide the required substantiation. This could result in a loss of revenue to the
 Federal Government and inequitable treatment of taxpayers.




 1
     Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                    The Internal Revenue Service Needs to Improve Procedures to
                     Identify Noncompliance With the Reporting Requirements for
                                  Noncash Charitable Contributions



Synopsis
Individual taxpayers are required to file Noncash Charitable Contributions (Form 8283) if their
charitable deductions claimed for noncash contributions exceed $500. If the value of donated
property exceeds $5,000, taxpayers are required to obtain signatures on their Forms 8283
acknowledging receipt of the donated property. In addition, taxpayers are required to attest on
their Forms 8283 that the value placed on the donated property was determined by a qualified
appraisal;2 however, until passage of the American Jobs Creation Act of 2004, taxpayers were
not required to attach the appraisals to their tax returns regardless of the value placed on the
donated property.
The IRS revised tax forms and publications and provided training and information to employees
to facilitate implementation of the new requirements for claiming noncash charitable
contributions. However, taxpayers and tax practitioners still need to be better educated
concerning requirements for claiming charitable contributions. Also, additional procedures need
to be established to identify noncompliance with charitable contribution requirements during
returns processing. Better education of taxpayers and preparers and additional returns processing
procedures will enable the IRS to address potential noncompliance, as Congress intended in its
legislation. We estimate 101,236 taxpayers could have claimed unsubstantiated noncash
contributions totaling approximately $1.8 billion for the period January 15 through
September 21, 2006.

Recommendations
We recommended the Commissioner, Large and Mid-Size Business Division, coordinate with
the other affected operating divisions to develop a comprehensive outreach plan on the reporting
requirements for noncash charitable contributions for affected taxpayers and tax practitioners.
We also recommended the Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, develop procedures to correspond with taxpayers
to obtain missing Forms 8283 and supporting documentation. Taxpayers failing to provide
missing Forms and substantiation should have a specific audit code input on their tax returns to
alert the Examination function of returns without required substantiation for noncash charitable
contributions.




2
  In general, the appraiser must sign the Form 8283 attesting to his or her qualifications, impartiality, and
independence.
                                                                                                                2
                The Internal Revenue Service Needs to Improve Procedures to
                 Identify Noncompliance With the Reporting Requirements for
                              Noncash Charitable Contributions



Response
IRS management agreed with the first recommendation and plans to supplement their outreach
plan by 1) partnering with several professional stakeholders to promote awareness of the
increased reporting requirements, 2) coordinating the IRS’ efforts to promote awareness of the
increased reporting requirements to donee organizations, and 3) partnering with professional
appraisal stakeholders to promote awareness of the increased reporting requirements and
appraiser responsibilities.
IRS management partially agreed with the second recommendation. The IRS will continue to
correspond with taxpayers claiming noncash contributions over a specific dollar threshold but
with no Forms 8283 attached to their returns. In addition, the IRS agreed to use a specific
indicator to identify for the Examination function returns claiming noncash contributions over
the same threshold dollar amount but with no Forms 8283 attached. Management’s complete
response to the draft report is included in Appendix IV.

Office of Audit Comment
Although the IRS plans to continue corresponding with taxpayers and will add a specific
indicator for instances in which Forms 8283 are missing, we believe few instances of
unsubstantiated deductions will be addressed by these actions. The dollar threshold, which
remains unchanged, has been set too high and needs to be lowered to ensure most of the returns
claiming unsubstantiated deductions are addressed in concert with Congressional concerns.
Also, the IRS does not plan any additional actions concerning incomplete documentation, such
as missing signatures and appraisals. Based on our sampling, we estimate fewer than 1 percent
of the returns with noncash charitable contribution deductions are above the IRS’ dollar
threshold. We applaud the IRS’ efforts to increase its outreach program to better educate
taxpayers and tax practitioners, but we urge the IRS to lower the dollar threshold and address
returns with incomplete documentation to better deal with these unsubstantiated deductions.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit, (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                                 3
                       The Internal Revenue Service Needs to Improve Procedures to
                        Identify Noncompliance With the Reporting Requirements for
                                     Noncash Charitable Contributions




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Tax Forms and Publications Were Revised, and Training and Information
          Were Provided to Employees to Facilitate Implementation of the New
          Requirements for Claiming Noncash Charitable Contributions ...................Page 2
          Taxpayers and Tax Practitioners Need to Be Better Educated Concerning
          Requirements for Claiming Charitable Contributions ..................................Page 2
                    Recommendation 1:..........................................................Page 4

          Additional Procedures Need to Be Established to Identify Noncompliance
          With Charitable Contribution Requirements During Returns Processing ....Page 4
                    Recommendation 2:..........................................................Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Management’s Response to the Draft Report ......................Page 11
        The Internal Revenue Service Needs to Improve Procedures to
         Identify Noncompliance With the Reporting Requirements for
                      Noncash Charitable Contributions




                       Abbreviations

AJCA             American Jobs Creation Act of 2004
IRS              Internal Revenue Service
LMSB             Large and Mid-Size Business
TIGTA            Treasury Inspector General for Tax Administration
                   The Internal Revenue Service Needs to Improve Procedures to
                    Identify Noncompliance With the Reporting Requirements for
                                 Noncash Charitable Contributions




                                            Background

The Tax Code allows individuals and businesses to make noncash contributions (e.g., vehicles,
paintings, used clothing, and household goods) to qualifying charities and to claim deductions
for these contributions on their tax returns. Gifts of donated property, clothing, and other
noncash items have long been an important source of revenue for many charitable organizations
and a popular deduction for taxpayers. In recent years, the legitimacy of the values placed on
some of these noncash donations has been questioned by the Internal Revenue Service (IRS) and
Congress. In Tax Year 2003,1 individuals reported 14.3 million noncash donations valued at
$36.9 billion.2
On October 22, 2004, President Bush signed the American Jobs Creation Act of 2004 (AJCA).3
AJCA Provision 883 (Increased Reporting for Noncash Charitable Contributions) created
additional reporting requirements for individual taxpayers making noncash charitable
contributions valued at more than $500,000. The IRS Large and Mid-Size Business (LMSB)
Division was assigned primary responsibility for implementation of Provision 883. The
implementation of this Provision involved multiple actions, including training and providing
guidance to IRS employees, creating and revising tax forms and publications, and coordinating
extensively with various IRS functions.
This review focused on noncash donations other than vehicles and works of art. The review was
performed at the IRS office in Holtsville, New York, during the period March through
September 2006. It included a review of tax returns filed nationwide and discussions with
personnel in the Submission Processing function of the Wage and Investment Division and the
Field Specialists function of the LMSB Division. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
  Tax Year 2003 was the most current year for which complete data were available.
2
  IR-2006-113, July 18, 2006.
3
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                                                        Page 1
                     The Internal Revenue Service Needs to Improve Procedures to
                      Identify Noncompliance With the Reporting Requirements for
                                   Noncash Charitable Contributions




                                        Results of Review

Tax Forms and Publications Were Revised, and Training and
Information Were Provided to Employees to Facilitate Implementation
of the New Requirements for Claiming Noncash Charitable
Contributions
To facilitate implementation of the new requirements for claiming noncash charitable
contributions, the LMSB Division created on its web site an AJCA webpage that contained links
to notices, news releases, fact sheets, and other existing technical guidance relating to the Act.
Tax forms and publications related to noncash charitable contributions were properly updated in
accordance with the new law. In addition, training covering the new law was provided to IRS
employees.
The LMSB Division used the Legislative Implementation Tracking System, which is an IRS
Intranet-based planning and monitoring system, to monitor implementation of the legislation.
This System lists the required actions with estimated due dates and the functions responsible for
taking the necessary actions.

Taxpayers and Tax Practitioners Need to Be Better Educated
Concerning Requirements for Claiming Charitable Contributions
Individual taxpayers are required to file a Noncash Charitable Contributions (Form 8283) if their
charitable deductions claimed for noncash contributions exceed $500. If the value of donated
property exceeds $5,000, taxpayers are required to obtain signatures on their Forms 8283
acknowledging receipt of the donated property. In addition, taxpayers are required to attest on
their Forms 8283 that the value placed on the donated property was determined by a qualified
appraisal;4 however, until passage of the AJCA, taxpayers were not required to attach the
appraisals to their tax returns regardless of the value placed on the donated property.
AJCA Provision 883 requires all donors who contribute property (other than cash, inventory, or
publicly traded securities) for which a deduction of more than $500,000 is claimed to attach a
qualified appraisal to their tax returns. Provision 883 is effective for donations made after
June 3, 2004.



4
  In general, the appraiser must sign the Form 8283 attesting to his or her qualifications, impartiality, and
independence.
                                                                                                                Page 2
                     The Internal Revenue Service Needs to Improve Procedures to
                      Identify Noncompliance With the Reporting Requirements for
                                   Noncash Charitable Contributions



 We reviewed statistically valid samples of Tax Year 2005 individual income tax returns on
 which the deductions claimed for noncash charitable contributions were greater than $5,000. In
 46 (22 percent) of 211 cases, taxpayers failed to provide the required substantiation for
 deductions of approximately $23 million.5 Paid preparers prepared 161 (76 percent) of the
 returns in our samples and prepared 33 (72 percent) of the 46 error cases.6
      Figure 1: Tax Returns Filed Without Substantiation for Noncash Contributions
                       Returns Signature              Appraisal         Form         Totals        Percentage
                       Sampled Missing                 Missing          8283                      With Missing
                                                                       Missing                   Documentation
       Noncash             121            27           Not                 2            29              24%
     Contributions                                   Applicable
        $5,001-
       $500,000
       Noncash             90              1              16               0            17              19%
     Contributions
     Greater Than
       $500,000
        Totals             211            28              16               2            46              22%
Source: Our analysis of cases in which the deductions for noncash contributions were greater than $5,000.

 Normally, the onus is on taxpayers and their preparers to stay abreast of existing and new tax law
 provisions. However, the IRS also has a responsibility to help taxpayers understand and meet
 their tax responsibilities. The fact that over 20 percent of taxpayers and/or preparers were not
 complying with the specific requirements (both old and new) for claiming noncash charitable
 contributions indicates the need for further action by the IRS.
 Unlike other provisions of the AJCA, for which the IRS provided information to practitioners
 and other stakeholders through news releases and other communications, guidance on
 Provision 883 has generally been limited to the revision of tax forms and publications. More
 than 2 years after enactment of the legislation, an IRS notice under Internal Revenue Code
 Section 1707 providing guidance and transitional rules for increased reporting for noncash
 charitable contributions was approved for release. Also, a draft of new regulations under Internal


 5
   The actual tax losses cannot be determined because the IRS did not identify these returns and therefore took no
 actions to determine whether the taxpayers could provide the required documentation.
 6
   We also reviewed a judgmental sample of 54 tax returns on which the noncash charitable contributions claimed
 were more than $500 but less than or equal to $5,000. We found that the Forms 8283 were attached to the returns
 and were prepared correctly.
 7
   26 U.S.C. Section 170 (2005).
                                                                                                             Page 3
                    The Internal Revenue Service Needs to Improve Procedures to
                     Identify Noncompliance With the Reporting Requirements for
                                  Noncash Charitable Contributions



Revenue Code Section 170 with more formal guidance on increased reporting for noncash
charitable contributions is not scheduled for release until 2007. Our samples were identified
from returns processed from January 15 through March 18, 2006. Based on the results of our
samples, we estimate 51,502 taxpayers claimed unsubstantiated noncash charitable deductions of
approximately $676 million on Tax Year 2005 returns processed during this time. If the error
rate for the returns processed from March 19 through September 21, 2006, remained the same as
the rate in our samples,8 we estimate 101,236 taxpayers could have claimed unsubstantiated
noncash contributions totaling approximately $1.8 billion for the period January 15 through
September 21, 2006.9 Without proper documentation, these taxpayers, by law, are not entitled to
these deductions.

Recommendation
Recommendation 1: The Commissioner, LMSB Division, should coordinate with the other
affected operating divisions to develop a comprehensive outreach plan on the reporting
requirements for noncash charitable contributions for affected taxpayers and tax practitioners.
Management’s Response: IRS management agreed with the recommendation and plans to
supplement their outreach plan by 1) partnering with several professional stakeholders to
promote awareness of the increased reporting requirements, 2) coordinating the IRS’ efforts to
promote awareness of the increased reporting requirements to donee organizations, and
3) partnering with professional appraisal stakeholders to promote awareness of the increased
reporting requirements and appraiser responsibilities.

Additional Procedures Need to Be Established to Identify
Noncompliance With Charitable Contribution Requirements During
Returns Processing
The procedures used by the IRS Submission Processing function were not adequate to ensure
taxpayers met requirements for deducting noncash charitable deductions. Tax laws related to
noncash charitable contributions state that no deduction shall be allowed for various noncash
charitable contributions unless taxpayers provide specific substantiating information with their



8
  For contributions of $5,001 to $500,000, the error rate was 24 percent and the average contribution amount was
$10,809. For contributions over $500,000, the error rate was 19 percent and the average contribution amount was
$1,338,967.
9
  These estimates were determined using the two samples described in Figure 1. For the sample of noncash
contributions of $5,001 to $500,000, we estimate 100,677 taxpayers could have claimed unsubstantiated noncash
contributions totaling approximately $1.1 billion. For the sample of noncash contributions greater than $500,000,
we estimate 559 taxpayers could have claimed unsubstantiated noncash contributions totaling approximately
$700 million.
                                                                                                           Page 4
                 The Internal Revenue Service Needs to Improve Procedures to
                  Identify Noncompliance With the Reporting Requirements for
                               Noncash Charitable Contributions



tax returns. In general, individuals who claim noncash charitable contributions must provide the
following with their returns:
   •   Noncash contributions of $501 to $5,000 – Form 8283 containing a description of the
       donated property.
   •   Noncash contributions of $5,001 to $500,000 – Form 8283 containing a description of the
       donated property, a signature from the charitable organization acknowledging receipt of
       the donated property, and the signature of a qualified appraiser.
   •   Noncash contributions of more than $500,000 – Form 8283 containing a description of
       the donated property, a signature from the charitable organization acknowledging receipt
       of the donated property, the signature of a qualified appraiser, and a copy of the appraisal.
Instructions for Form 8283 inform the taxpayer that his or her deduction generally will be
disallowed if he or she fails to attach Form 8283, get a required appraisal, or attach an appraisal
when required. However, the IRS Submission Processing function did not adjust or stop these
returns during processing or implement any type of review of these returns. Submission
Processing function guidelines allow returns with such deductions to be processed except in the
most egregious cases where the deductions are of a very significant amount and Form 8283 is
missing. All other income tax returns filed without substantiation for the claimed noncash
contribution deductions are processed as filed by the taxpayers.
Further, the IRS indicated the Examination function would be responsible for any review of
information related to these returns; however, the returns were not coded or processed in any
way to alert the Examination function of the unsubstantiated deductions. Instead, the returns go
through the same Examination function selection criteria as any other tax returns. The
Examination function generally audits fewer than 1 percent of the individual income tax returns
filed each year.
By not identifying returns filed without the required substantiation for charitable contributions,
the IRS is not addressing the Congressional intent of this legislation. Taxpayers who are not
entitled to deductions for noncash contributions are reducing their tax liabilities and may receive
refunds regardless of whether they provide the required substantiation. This could result in a loss
of revenue to the Federal Government and inequitable treatment of taxpayers.

Recommendation
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, and the
Commissioner, Wage and Investment Division, should develop the following procedures to
address returns without required substantiation for noncash charitable contributions:
a) Correspond with taxpayers to obtain missing Forms 8283 and supporting documentation.


                                                                                             Page 5
                 The Internal Revenue Service Needs to Improve Procedures to
                  Identify Noncompliance With the Reporting Requirements for
                               Noncash Charitable Contributions



b) Input a specific audit code on tax returns that fail to provide missing Forms and substantiation,
   to alert the Examination function of returns without required substantiation for noncash
   charitable contributions.
Management’s Response: IRS management partially agreed with this recommendation.
The IRS will continue to correspond with taxpayers claiming noncash contributions over a
specific dollar threshold but with no Forms 8283 attached to their returns. It also plans to use
and provide guidance for a specific indicator to identify for the Examination function returns
claiming noncash charitable contributions over a specific threshold dollar amount but with no
Forms 8283.
Office of Audit Comment: Although the IRS plans to continue corresponding with taxpayers
and will add a specific indicator for instances in which Forms 8283 are missing, we believe few
instances of unsubstantiated deductions will be addressed by these actions. The dollar threshold,
which remains unchanged, has been set too high and needs to be lowered to ensure most of the
returns claiming unsubstantiated deductions are addressed in concert with Congressional
concerns. Also, the IRS does not plan any additional actions concerning incomplete
documentation, such as missing signatures and appraisals. Based on our sampling, we estimate
fewer than 1 percent of the returns with noncash charitable contribution deductions are above the
IRS’ dollar threshold.
We applaud the IRS’ efforts to increase its outreach program to better educate taxpayers and tax
practitioners, but we urge the IRS to lower the dollar threshold and address returns with
incomplete documentation to better deal with these unsubstantiated deductions.




                                                                                             Page 6
                    The Internal Revenue Service Needs to Improve Procedures to
                     Identify Noncompliance With the Reporting Requirements for
                                  Noncash Charitable Contributions



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the implementation of Provision 883
(Increased Reporting for Noncash Charitable Contributions) of the AJCA1 and the processing of
individual income tax returns reporting deductions for noncash contributions. To accomplish our
objective, we:
I.      Evaluated the IRS’ implementation of Provision 883.
        A. Reviewed the requirements for deductions of noncash charitable contributions and
           identified the new requirements under Provision 883.
        B. Determined what actions have been taken by the IRS to implement Provision 883.
             1. Reviewed and monitored the Legislative Implementation Tracking System2 to
                identify planned actions to implement Provision 883.
             2. Determined whether the IRS timely developed and revised tax forms, schedules,
                instructions, and/or publications when necessary. We also determined whether
                training of IRS employees was sufficient and whether taxpayers and tax
                practitioners were informed adequately concerning the requirements of the law.
II.     Evaluated controls over the processing of deductions for noncash charitable contributions
        reported on individual income tax returns by reviewing samples of tax returns.
        A. Extracted data from the Individual Master File3 Return Transaction File,4 which is
           stored at the Treasury Inspector General for Tax Administration (TIGTA) Data
           Center Warehouse.5 We used the criterion of noncash charitable contributions in
           excess of $500 for the Tax Year ending Dec. 31, 2005.6 We stratified the population


1
  Pub. L. No. 108-357, 118 Stat. 1418 (2004).
2
  This is an IRS Intranet-based planning and monitoring system to monitor implementation of legislation. This
System lists the required actions with estimated due dates and the functions responsible for taking the necessary
actions.
3
  This is the IRS database that maintains transactions or records of individual tax accounts.
4
  The Return Transaction File contains line items transcribed during return processing and other fields such as math
calculations.
5
  The TIGTA Data Center Warehouse provides data and data access services; centralizes storage, security, and
administration of files; and develops uniform and user-friendly interfaces for users to access data.
6
  We selected this tax period so any deductions for noncash charitable contributions would be subject to AJCA
Provision 883. The TIGTA Data Center Warehouse file included Tax Year 2005 returns processed from January 15
through March 18, 2006.
                                                                                                            Page 7
                       The Internal Revenue Service Needs to Improve Procedures to
                        Identify Noncompliance With the Reporting Requirements for
                                     Noncash Charitable Contributions



                of 3,732,911 returns by the amount of the deduction for noncash charitable
                contributions into the following ranges:
                     1) More than $500 but less than or equal to $5,000 (3,517,950 returns).
                     2) More than $5,000 but less than or equal to $500,000 (214,486 returns).
                     3) Greater than $500,000 (475 returns).
                We selected three random and statistically valid samples (see audit steps B, C, and D
                below) from the stratified populations based on a 95 percent confidence level and a
                precision rate of ±10 percent. A statistical sampling method was used to make a
                projection about the population from which the samples were selected. We validated
                the tax return data against the data on the Individual Master File Return Transaction
                File. No discrepancies were found.
           B. Used a random statistically valid sample of 140 tax returns on which the noncash
              charitable contributions claimed were more than $500 but less than or equal to $5,000
              to determine whether a Form 8283 was attached to the return and prepared correctly.
              Because our review of the first 54 cases showed no errors, we decided that further
              review of this sample was unnecessary.
           C. Reviewed a random statistically valid sample of 121 tax returns on which the noncash
              charitable contributions claimed were more than $5,000 but less than or equal to
              $500,000 to determine whether a Form 8283 was attached to the return and the
              required information/signatures were obtained from a qualified appraiser and the
              donee.
           D. Reviewed a random statistically valid sample of 90 tax returns on which the noncash
              charitable contributions claimed were more than $500,000 to determine whether a
              Form 8283 and an appraisal were attached to the return.
           E. Determined whether deductions are disallowed on tax returns without the required
              documentation.
           F. Extracted data from the Individual Master File Return Transaction File at the TIGTA
              Data Center Warehouse using the criteria from strata 2) and 3) in Step II.A. to
              determine the number of additional error cases processed for the period March 19
              through September 21, 2006.7




7
    We used the error rates from the original samples to arrive at this figure.
                                                                                                 Page 8
                The Internal Revenue Service Needs to Improve Procedures to
                 Identify Noncompliance With the Reporting Requirements for
                              Noncash Charitable Contributions



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Robert K. Irish, Audit Manager
Dolores M. Castoro, Acting Audit Manager
Bernard F. Kelly, Acting Audit Manager
Philip W. Peyser, Lead Auditor
Margaret F. Filippelli, Senior Auditor
Stephen A. Wybaillie, Senior Auditor
Layne Powell, Information Technology Specialist




                                                                                        Page 9
               The Internal Revenue Service Needs to Improve Procedures to
                Identify Noncompliance With the Reporting Requirements for
                             Noncash Charitable Contributions



                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Assistant Deputy Commissioner for Services and Enforcement SE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 10
    The Internal Revenue Service Needs to Improve Procedures to
     Identify Noncompliance With the Reporting Requirements for
                  Noncash Charitable Contributions



                                                    Appendix IV

Management’s Response to the Draft Report




                                                          Page 11
The Internal Revenue Service Needs to Improve Procedures to
 Identify Noncompliance With the Reporting Requirements for
              Noncash Charitable Contributions




                                                      Page 12
The Internal Revenue Service Needs to Improve Procedures to
 Identify Noncompliance With the Reporting Requirements for
              Noncash Charitable Contributions




                                                      Page 13
